ISSUED BY:

VISA Signature
Credit Card Agreement
DISCLOSURES REQUIRED BY FEDERAL LAW

1. Interest Charges
a. Calculation Methods - Credit Purchases: _____G____; Balance Transfer ____A_____; Cash
Advance: ____A_____.
b. Periodic Rates used to compute Interest Charges - Credit Purchases:
1.02000-1.18667
1.02000-1.18667
______________________%
per month; Balance Transfers: ______________________%
per
1.49167
month; Cash Advances: ______________________%
per month.
Corresponding
ANNUAL
PERCENTAGE
RATES
Credit
Purchases:
12.24-14.24
12.24-14.24
______________________%;
Balance Transfer ______________________%;
Cash Advance:
17.90
______________________%.

11. SECURITY: If you have other loans or credit extensions from Issuer, or take out
other loans or credit extensions with Issuer in the future, collateral securing those
loans or credit extensions will also secure your obligations under this agreement.
However, unless you expressly agree otherwise, your household goods and dwelling
will not secure your obligations under this agreement even if Issuer has, or later
acquires, a security interest in the household goods or a mortgage on the dwelling. If
you have executed a written agreement granting a security interest in any deposit
accounts (checking, savings, or share accounts) or other funds held by Issuer to
secure your obligations under this credit card plan, such accounts and/or funds are
additional security for your obligations to Issuer arising from the use of your Card.

12. Annual Fee Plans: Your Annual Fee waiver analysis, under the Plan noted in Section 3.b.
only includes the following transactions: Plan 1: Gross Sales; Plan 2: Gross Cash Advances;
Plan 3: Net Sales; Plan 4: Net Cash Advance; Plan 5: Gross Sales plus Gross Cash Advance;
Plan 6: Net Sales plus Net Cash Advance (Note: Time period analyzed shall be prior 12 month
period; however, initial time period may be less than 12 months as it begins on the date you
were notified of this program. Annual Fees shall not be waived for cardholders in default.)
PERIODIC INTEREST CHARGE CALCULATIONS METHODS
You agree to pay interest at the rate(s) disclosed to you at the time you open your account and
as may be changed from time to time in accordance with applicable law. The periodic Interest
Charge Calculation Method applicable to your account for Cash Advances and Credit
purchases of goods and services that you obtain through the use of your Card is specified in
Section 1 on the Disclosure above and explained below:
2. Transaction Fees - For Balance Transfers and Cash Advances a fee equal to the greater of
Method
A - Average Daily Balance (including current transactions). The Interest Charge on
$5.00 or 2% of the Balance Transfer or Cash Advance will be imposed. A transaction fee may
also be imposed by an ATM operator, not holding your account, or by any national, regional or purchases begins from the date the transaction is posted to your account, and the Interest
Charge on cash advances or balance transfers begins from the date you obtained the cash
local network used to complete a Cash Advance transaction.
advance or balance transfer, or the first day of the billing cycle in which it is posted to your
3. OVERLIMIT CHARGES: Cardholder shall immediately pay the amount by which the total account, whichever is later. There is no grace period.
New Balance exceeds the maximum authorized credit. An Overlimit Charge equal to the The Interest Charges for a billing cycle are computed by applying the monthly Periodic Rate to
greater of $__N/A____ , or___N/A___ % of the Amount overlimit, shall be imposed, not to the "average daily balance" of your account. To get the average daily balance, we take the
exceed $__N/A___ (For California accounts see, Sec. 9.)
beginning balance of your account each day, add any new purchases or cash advances, and
subtract any payments, credits, non-accruing fees, and unpaid Interest Charges. This gives us
4. ANNUAL FEE
the daily balance. Then we add up all the daily balances for the billing cycle and divide the total
a. A non-refundable Annual Fee of $__N/A___ plus applicable taxes, shall be charged to your
by the number of days in the billing cycle.
account, or
Method E - Average Daily Balance (excluding current transactions). To avoid incurring an
b. Using Plan______N/A________ (see Sec. 11) An Annual Fee/Interest Charge of $_N/A_ additional Interest Charge on the balance of purchases (and cash advances if Method E is
plus applicable taxes shall be charged unless, for the time period analyzed, you charged more specified as applicable to cash advances) reflected on your monthly statement, you must pay
than $______N/A________ or had more than _N/A_ transactions on your card
the New Balance shown on your monthly statement on or before the Payment Due Date. The
grace period for the New Balance of purchases extends to the Payment Due Date.
5. MINIMUM PAYMENT:
a. The minimum payment required is the New Balance shown on your statement if the amount The Interest Charges for a billing cycle are computed by applying the monthly Periodic Rate to
the "average daily balance" of purchases (and if applicable, cash advances). To get the
is equal to or less than $__25.00___
average daily balance, we take the beginning balance of your account each day and subtract
b.
If the New Balance exceeds $__25.00__ the minimum payment is__2.00___ % of that any payments, credits, non-accruing fees, and unpaid Interest Charges. We do not add in new
portion of the New Balance which does not exceed your credit limit (rounded up to the nearest purchases or cash advances. This gives us the daily balance. Then we add up all the daily
dollar), or $__25.00__________, whichever is greater, plus the entire portion of the New balances for the billing cycle and divide the total by the number of days in the billing cycle.
Balance in excess of your credit limit, plus any amount past due.
Method F - Average Daily Balance (including current transactions). To avoid incurring an
6. LATE CHARGES: If the minimum required payment is not received within__0__ days after additional Interest Charge on the beginning balance of cash advances (and purchases, if
29.00
Method F is specified as applicable to purchases) reflected on your monthly statement, you
the Closing Date subsequent to the payment Due Date, a late charge of up to $_______,
or__N/A____ %, whichever is less, of the unpaid portion of the past due amount is imposed, must pay the Beginning Balance shown on your monthly statement on or before the Payment
Due Date. No grace period is provided for current cycle transactions.
but not to exceed $_______.
29.00
7. The only Interest Charges assessed on your account other than those assessed by a The Interest Charges for a billing cycle are computed by applying the monthly Periodic Rate to
periodic rate, will be transaction Interest Charges in connection with Cash Advances or the "average daily balance" of cash advances (and if applicable, purchases). To get the
Balance Transfers if part of your Plan. Transaction Interest Charges for each Cash Advance or average daily balance, we take the beginning balance of your account each day, add any new
Balance Transfer will be imposed on the date the Cash Advance or Balance Transfer was purchases or cash advances, and subtract any payments, credits, non-accruing fees, and
unpaid Interest Charges. This gives us the daily balance. Then we add up all the daily balances
posted to your account. No grace period applies on any transaction Interest Charge imposed
for the billing cycle and divide the total by the number of days in the billing cycle.
for Cash Advance or Balance Transfer.
Method G - Average Daily Balance (including current transactions). To avoid incurring an
8. Documentary stamp taxes as may be required by law shall be imposed on each Cash additional Interest Charge on the balance of purchases (and cash advances, if Method G is
Advance at the time the loan is made.
specified as applicable to cash advances) reflected on your monthly statement and, on any
9. The annual fee shall be treated as a Credit Purchase for purposes of calculating Interest new purchases (and if applicable, cash advances) appearing on your next monthly statement
you must pay the New Balance, shown on your monthly statement, on or before the Payment
Charges, unless prohibited by law.
Due Date. The grace period for the New Balance of purchases extends to the Payment Due
10. In California a maximum of $10 in Overlimit Fees may be imposed with respect to any
Date.
charge that causes the outstanding balance to exceed the credit limit by $500 or 120 percent,
whichever is less. No more than one overlimit charge may be assessed within a single monthly The Interest Charges for a billing cycle are computed by applying the monthly Periodic Rate to
the "average daily balance" of purchases (and if applicable, cash advances). To get the
billing cycle.
average daily balance, we take the beginning balance of your account each day, add any new
purchases or cash advances, and subtract any payments, credits, non-accruing fees, and
unpaid Interest Charges. This gives us the daily balance. Then we add up all the daily balances
for the billing cycle and divide the total by the number of days in the billing cycle.
IMPORTANT NOTICES
*SIGN SIGNATURE PANEL ON THE BACK OF CARD(S) IMMEDIATELY. CARD(S) MUST BE SIGNED TO BE VALID. *DESTROY OLD CARD(S) NOW.
*SAVE YOUR SALES SLIPS FOR COMPARISON WITH YOUR MONTHLY STATEMENT.
LOST OR STOLEN CARD CALL (866) 929-1901
page 1 of 3
LASER FPDF FI13824 Rev 3-2020
COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.
The Periodic Rates and corresponding Annual Percentage Rates will vary with the market
based on the Prime Rate. The interest rates may increase or decrease if the highest rate of
interest identified as the 'Prime Rate' in the 'Money Rates' column of the Wall Street Journal
increases or decreases as of the 10th calendar day of the month. The Annual Percentage Rate
will be equal to the Prime Rate plus a margin of: ______________________
% for Credit
8.99-10.99
8.99-10.99
Purchases;
______________________
%
for
Balance
Transfers;
and
14.65
______________________
% for Cash Advances, and then rounded to the nearest 0.010%.
The monthly Periodic Rate will be equal to the Annual Percentage Rate divided by twelve. The
interest rate can change monthly on the 25th calendar day of any month in which the Prime
Rate changes. For example, a new Prime Rate on March 10 means your rate will change on
March 25. The Annual Percentage Rate will never be more than ___18.00___%.

TERMS GOVERNING THE USE OF YOUR CARD
The person ("Cardholder") whose name is embossed on the face of the VISA ("Card") enclosed
herewith, and each Cardholder, in the event more than one Card is enclosed herewith bearing the
same account number, by signing or using said Card, receipt of which is acknowledged, agrees
with the Issuer of the Card whose name is printed on the reverse ("Issuer") as follows:
A. Goods and services ("Credit Purchases") may be purchased or leased by means of such card
by Cardholder from any retail business establishment ("Seller") who honors same upon the
execution of a sales slip evidencing such Credit Purchases and bearing the account number of
Cardholder embossed on the face of such Card. Additionally, VISA Cash Advances ("Loans") may
be obtained through use of such Card (a) upon execution of a written request of Cardholder in a
form furnished to Cardholder from any financial institution that is a member, alone or in association
with others, of VISA U.S.A. Inc. and (b) upon execution of a written separate agreement with
issuer for a VISA overdraft financing agreement, if offered by Issuer.
B. Cardholder shall be liable and agrees to pay Issuer for Credit Purchases made by, or for Loans
extended to, Cardholder or anyone else using such Card unless the use of such Card is by a
person other than the Cardholder (a) who does not have actual, implied or apparent authority for
such use, and (b) from which Cardholder receives no benefit. Additionally, Cardholder shall be
jointly and severally liable and agrees to pay for all Credit Purchases and Loans obtained through
the use of any other Card bearing Cardholder's account number that has been issued to another
person by reason of such person being a member of Cardholder's family, or otherwise issued upon
Cardholder's request (all such Cards bearing the VISA account number hereinafter collectively
called "Related Cards").
C. Cardholder agrees to pay to Issuer an annual membership fee (as stated in the Disclosures on
the reverse) for participation in the Issuer's credit card plan. Such annual membership fee shall be
imposed whether or not Cardholder uses the card to obtain credit purchases and loans. The
membership fee shall be charged to Cardholder's account each year in the month of Issuer's
choice. The membership fee is not refundable in the event of termination of the account by either
Cardholder or Issuer unless otherwise provided for by law.
D. Each Card is the property of Issuer, is not transferable and must be surrendered upon demand.
It can be canceled as well as repossessed by Issuer or its designee, and the privileges thereof
revoked, at any time without prior notice.
E. Cardholder shall not use the card or permit the use of Related Cards to obtain Credit
Purchases or Loans which will increase Cardholder's indebtedness to Issuer to an amount in
excess of the limit established by Issuer.
F. All Credit Purchases and Loans are effected at the option of the Seller and Cash Advancing
Financial Institution, respectively, and Issuer is not responsible for the refusal of any plan merchant
or financial institution to honor the Card. Also, Issuer is not responsible for goods or services that
Cardholder purchases with the Card unless: (a) the purchase was made in response to an
advertisement Issuer sent or participated in sending Cardholder; or (b) the purchase cost more
than $50 and was made from a plan merchant in Cardholder's state or within 100 miles of
Cardholder's home; and only if Cardholder has made a good faith attempt, but have been unable
to obtain satisfaction from the plan merchant. Cardholder must resolve all other disputes directly
with the plan merchant. Issuer does not warrant any merchandise or services purchased by
Cardholder with the Card.
G. Issuer will send to Cardholder, at monthly intervals determined by Issuer, a statement reflecting
for the prior monthly period all VISA Card and Related Card transactions. Such statement shall be
deemed correct and accepted by Cardholder and all holders of Related Cards unless Issuer is
notified to the contrary in writing within 60 days of mailing of such statement. Cardholder will pay
such statement by remitting to Issuer within 25 days of the closing date reflected on the statement
either the full amount billed or, at Cardholder's option, an installment equal to at least the required
minimum payment stated in Section 4 on page 1 of this document.
H. Interest on Loans and Credit Purchases will be charged in accordance with the Interest Charge
calculation method referred to in Section 1 of the Disclosures on page 1 of this document. The rate
of interest shall be established by Issuer from time to time, but shall never exceed the maximum
rate permitted by law. The current interest rate per annum is the Annual Percentage Rate set forth
in Section 1 of the Disclosures on page 1 of this document.
I. If the card is canceled or surrender is demanded by Issuer, or if Cardholder defaults in any
payment due, or is deceased, bankrupt or insolvent, or any attachment or garnishment
proceedings are initiated against Cardholder or his property, Issuer may elect to declare all
amounts then owed to Issuer to be immediately due and payable without notice or demand of any
kind. If Cardholder has other loans from Issuer, or takes out other loans with Issuer in the future,
collateral securing those loans will also secure the Cardholder's obligations under this agreement.
However, unless the Cardholder expressly agrees otherwise, the Cardholder's household goods
and dwelling will not secure Cardholder's obligations under this agreement even if Issuer has or
later acquires a security interest in the household goods or a mortgage on the dwelling. Cardholder
agrees to pay all costs incurred by Issuer in collecting Cardholder's indebtedness or in enforcing
this agreement, including reasonable attorney's fees and also those costs, expenses and
attorney's fees incurred in appellate, bankruptcy and post-judgment proceedings, except to the
extent such costs, fees or expenses are prohibited by law.
J. This agreement may be amended from time to time by Issuer by written notice mailed to
Cardholder at Cardholder's last known address, subject to applicable law.
K. Except to the extent that Federal law is applicable, the validity, construction and enforcement of
this agreement and all matters arising out of the issuance and use of the Card shall be governed
by the laws of the state in which the principal office of Issuer is located.
L. Additional charges, plus applicable taxes, may also be assessed if you pay us with a check not
honored by your financial institution, request a copy of a document, request a replacement card or
use your card for a transaction at an automated teller machine, if such charges are not prohibited
by law or regulation. No Interest Charge will be assessed on such additional charges.
LASER FPDF FI13824 Rev 3-2020

M. Cardholder may be liable for the unauthorized use of the Card or Related Cards as provided
in this paragraph. Unless Issuer can prove the Cardholder was negligent or committed fraud in
the use or handling of the Card, the Cardholder will not be liable for any unauthorized use that
occurs after the Issuer is notified, orally or in writing at: Credit Card Security Department, P.O.
Box 2070, Fort Mill, SC 29716, Telephone Number (866) 929-1901.
If Cardholder has a consumer account or a business account, there is no limit to Cardholder's
liability for any unauthorized use that occurs before Cardholder notifies Issuer as provided
herein; the business or organization may only impose liability on its employees for unauthorized
use of a card as authorized by federal law and regulation.
N. Cardholder agrees that Issuer, its agents or service companies may monitor and/or record
any telephone communications with Cardholder.
O. Foreign Transactions; Currency Conversion. Purchases and cash advances made in foreign
currencies will be billed to you in U.S. dollars. The conversion rate in dollars will be a rate
selected by the card company from a range of rates available in wholesale currency markets
for the applicable central processing date, which rate may vary from the rate the card company
itself receives, or the government- mandated rate in effect for the applicable central processing
date in each instance. All transactions processed outside of the United States (which may
include internet transactions) will be charged a foreign transaction fee in the amount disclosed
on Cardholder's Truth-in- Lending Statement or similar document (as amended from time to
time).
P. Issuer shall have sole discretion in how payments are applied to Cardholder's account
subject to applicable law. Issuer may accept checks marked "Payment in Full" or with words of
similar effect without losing any of Issuer's rights to collect the full balance of Cardholder's
account. Payments must be made to Issuer in US dollars drawn on a US financial institution.
Q. Issuer can reinvestigate and reevaluate any information Cardholder provided on
Cardholder's credit application at any time, and in the course of doing so, Issuer may ask
Cardholder for additional information, request credit bureau reports and/or otherwise verify
Cardholder's current credit standing.
R. Cardholder agrees that Issuer may re-release information to others, such as credit bureaus,
regarding the status and history of Cardholder's account. However, Issuer is not obligated to
release any such information to anyone unless Issuer is required by law to do so.
S. Cardholder agrees that Cardholder's account shall be subject to all applicable rules and
regulations of VISA U.S.A. Inc., as applicable, as well as all applicable laws. If there is any
conflict between the provision of this Agreement and the rules and regulations of VISA U.S.A.
Inc., the rules and regulations of VISA U.S.A. Inc. shall control. Your Visa Card may not be
used for any illegal transaction(s).
T. Cardholder shall not use the Card or account to make or facilitate any illegal transactions as
determined by applicable law; and that any such use will constitute an event of default under
this Agreement. Issuer may decline any transaction that it believes to be illegal under
applicable law, including but not limited to any transaction involving or relating to any gambling
activity. Cardholder agrees that Issuer will have no liability or responsibility for any such use by
Cardholder or any authorized user(s); or for declining any such transaction. Cardholder further
agree to indemnify and hold Issuer harmless from any suits, liability, damages or adverse
action of any kind that results directly or indirectly from such illegal use. Cardholder promises to
pay Issuer any and all amounts owing on the Card for any transactions made by Cardholder,
even if the transaction is determined to be illegal.
U. Merchants and others who honor the Card may give credit for returns or adjustments, and
they will do so by submitting a credit slip which will be posted to Cardholder's account. If the
credits and payments exceed what Cardholder owes, the amount will be applied against future
purchases and cash advances. If the credit balance amount is $1 or more, it will be refunded
upon Cardholder's written or verbal request.
V. From time to time the Issuer may offer a special rate applicable to certain transactions such
as particular purchases (as defined by the Issuer), balance transfers, cash advances or
purchases made by using Convenience Checks. Applicable terms and conditions will be
disclosed at the time any such promotion is offered, and are incorporated into this agreement
by reference. The promotional rate will apply only to the transactions and for the period of time
set forth in any such offer from the Issuer. Existing balances and new purchases or advances
not expressly subject to any such promotion will remain governed by the terms and conditions
of this agreement. In addition, the terms and conditions of this agreement will govern
Cardholder's obligations regarding any unpaid balance or transactions that are made subject to
any such promotional offer, that are not fully paid within the time period set forth in such
promotional offer.
W. The Issuer may offer Cardholder the opportunity to not make ("skip") a minimum payment
during certain designated billing cycles ("skip payment period"). If Cardholder does not make
minimum payments as provided in this agreement, during such designated billing cycles,
Cardholder understands that Issuer will continue to apply finance charges to the account.
Beginning with the billing cycle following an allowed skip payment period, all other provisions of
this agreement will apply. The Issuer has no obligation to accept Cardholder's application for
any skip payment period offered, and Cardholder authorizes Issuer to investigate Cardholder's
creditworthiness including obtaining consumer credit reports. The Issuer may charge an
application processing fee of up to $50.00 for each skip payment period that issuer may offer to
cover the costs of investigating Cardholder's qualifications for this extension including but not
limited to the costs associated with researching Cardholder's creditworthiness.
X. If Cardholder elects debt protection, as set forth in the Cardholder's application, then the
charges will be added to the account balance on each billing cycle, if the debt protection
application is approved. Debt protection is voluntary and not required to obtain a credit card
account with the Issuer. Cardholder has a right to terminate this debt protection at anytime by
notifying the Issuer in writing.

page 2 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es) listed on your
statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do, we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will
also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder
of your balance.
• We can apply any unpaid amount against your credit limit.

LASER FPDF FI13824 Rev 3-2020

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will send you a statement of the amount you owe and the
date payment is due. We may then report you as delinquent if you do not pay the amount we
think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After
we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

page 3 of 3

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

Visa Signature

TRUTH-IN-LENDING DISCLOSURE STATEMENT - ACCOUNT OPENING DISCLOSURES
The following disclosure represents important details concerning your credit card. This statement is incorporated into and becomes a part of your Credit
Card Agreement. We reserve the right to periodically review your credit standing and to increase any rate on your new balances, in accordance
with applicable law.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR) for
Purchases and Balance Transfers

1.90%

twelve
Introductory APR for ____________
months. After that, your Standard
APR will be

12.24-14.24%

This APR will vary with the market based on the Prime Rate*.

This APR will vary with the market based on the Prime Rate*.

APR for Cash Advances

17.90%

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge you interest on
purchases if you pay your entire new purchase balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your Account
- Annual Fee:

None

Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:

___%
of the amount of each transfer (minimum: $5.00)
2
2
___%
of the amount of each cash advance (minimum: $5.00)
1
___%
of each transaction in U.S. dollars

Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

0
29.00 if your payment is late _____
Up to $_______
days or more
None
25.00 if your payment is returned for any reason
Up to $_______

How We Will Calculate Your Balance: We use a method called "average daily balance (including current transactions)", which means we calculate the
balance by adding together all new purchases and other transactions and subtracting payments and credits for each day in the billing cycle, adding these
daily balances, and dividing by the number of days in the billing cycle. See your account agreement for more details.
Loss of Introductory Rate: We may end your Introductory Rate and apply the Standard APR disclosed above if you make a late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
OTHER IMPORTANT DISCLOSURES:
SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO
SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR
FEDERAL LAW. THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT. IF YOU ARE IN DEFAULT, WE CAN
APPLY YOUR SHARES TO THE AMOUNT YOU OWE. Shares and deposits in an Individual Retirement Account or any other account that would lose special tax treatment under state or
federal law if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans may also secure your obligations under this agreement.
*Variable Rates: The Annual Percentage Rate may increase or decrease if the highest rate of interest identified as the 'Prime Rate' in the 'Money Rates' column of the Wall Street Journal
8.99-10.99
increases or decreases as of the 10th calendar day of the month. The Annual Percentage Rate will be equal to the Prime Rate plus a margin of: _____________%
and then rounded to the
nearest 0.010%. The interest rate can change monthly on the 25th calendar day of any month in which the Prime Rate changes. For example, a new Prime Rate on March 10 means your rate will
change on March 25. The Annual Percentage Rate will never be more than 18.00%. Any increase will lengthen the time it takes to payoff the loan.
Daily Periodic Rates: Introductory Rate: 0.00521
Balance Transfers: 0.03353-0.03901

%; Purchases: 0.03353-0.03901
%.

%; Cash Advances: 0.04904

%;

Other Fees: In addition to the fees disclosed above, the following fees may be imposed:
Document/Statement Copy Fee:
$2.00 per page
Card Replacement Fee:
$10.00
Pay-by-Phone Fee:
$10.00
Minimum Payment Requirements: The minimum payment required is the New Balance shown on your statement if the amount is equal to or less than $25.00. If the New Balance exceeds
$25.00 the minimum payment is 2.00% of that portion of the New Balance which does not exceed your credit limit (rounded up to the nearest dollar), or $25.00, whichever is greater, plus the
entire portion of the New Balance in excess of your credit limit, plus any amount past due.
LASER FPDF FI13824 Rev 3-2020

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

